TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Significant Additional Real Estate Cost
                 Savings Can Be Achieved by Implementing a
                   Telework Workstation Sharing Strategy



                                         August 27, 2012

                              Reference Number: 2012-10-100




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


SIGNIFICANT ADDITIONAL REAL                             sharing by employees who participate in
ESTATE COST SAVINGS CAN BE                              telework, it continues to incur rental costs for
ACHIEVED BY IMPLEMENTING A                              more workstations than required. Specifically, if
TELEWORK WORKSTATION SHARING                            employees who routinely telework on a full- or
                                                        part-time basis shared their workstations,
STRATEGY
                                                        10,244 workstations could potentially be
                                                        eliminated. This could allow the IRS to reduce
                                                        its office space needs by almost one million
Highlights                                              square feet, resulting in potential rental savings
                                                        of approximately $111.4 million over five years.
Final Report issued on August 27, 2012
                                                        WHAT TIGTA RECOMMENDED
Highlights of Reference Number: 2012-10-100
to the Internal Revenue Service Chief,                  TIGTA recommended that the IRS Human
Agency-Wide Shared Services, and the IRS                Capital Officer finalize an agreement with the
Human Capital Officer.                                  National Treasury Employees Union that
                                                        establishes a workstation sharing policy that can
IMPACT ON TAXPAYERS                                     be implemented IRS-wide. The IRS should
                                                        pursue a workstation sharing policy with other
On June 10, 2010, President Obama directed              IRS business units similar to the agreement
Government agencies to eliminate excess                 reached with its Information Technology
properties and achieve $3 billion in savings by         organization until an agreement between the
the end of Fiscal Year (FY) 2012. Our review            IRS and the National Treasury Employees Union
found that the IRS has achieved some cost               is finalized. In addition, the Chief, Agency-Wide
savings in support of the President’s goal.             Shared Services, should develop an overall
However, these efforts are impeded by the lack          strategy that links workstation sharing with the
of an established policy and effective strategy on      IRS’s planning for future space needs and
implementing workstation sharing by                     reevaluate the potential impact of workstation
IRS employees who telework. A policy requiring          sharing on all current real estate planning
employees who telework to share workstations            projects.
would allow the IRS to further reduce its
long-term office space needs and achieve                In their response, IRS management agreed with
additional cost savings.                                our recommendations. The implementation of a
                                                        shared workstation program for telework
WHY TIGTA DID THE AUDIT                                 employees has been successfully negotiated
 This audit was initiated to assess the                 with the National Treasury Employees Union and
IRS’s progress in achieving real estate cost            will take effect on October 1, 2012. The IRS
savings to meet the President’s FY 2012                 plans to revise interim and long-range portfolio
Federal real estate cost savings goals.                 strategies for future space needs at sites to
                                                        include workstation sharing as appropriate and
WHAT TIGTA FOUND                                        review real estate projects to determine if the
                                                        applicable space requirements can be reduced if
From October 2010 through December 2011,                workstation sharing is implemented for frequent
the IRS completed 17 space consolidation and            teleworkers.
relocation projects, which the IRS reported will
result in $2.8 million of realized rent savings in
FY 2012. The IRS also plans to complete an
additional 66 projects by September 2012 that
could provide an additional $3.8 million in
realized savings in FY 2012.
However, our review found that because the IRS
has been unable to effectively capitalize on the
space cost savings available from workstation
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 27, 2012


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES
                IRS HUMAN CAPITAL OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Significant Additional Real Estate Cost Savings
                             Can Be Achieved by Implementing a Telework Workstation Sharing
                             Strategy (Audit # 201110009)

 This report presents the results of our review on how significant additional real estate cost
 savings can be achieved by implementing a telework workstation sharing strategy. The overall
 objective of this review was to assess the Internal Revenue Service’s (IRS) progress in achieving
 real estate cost savings to meet the President’s Fiscal Year (FY) 2012 Federal real estate cost
 savings goals. The review is included in our FY 2012 Annual Audit Plan and addresses the
 major management challenge of Achieving Program Efficiencies and Cost Savings.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-6510.
                                    Significant Additional Real Estate Cost Savings
                                          Can Be Achieved by Implementing a
                                        Telework Workstation Sharing Strategy




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Achieving Additional Space Savings Is Hampered by the
          Lack of an Effective Telework Workstation Sharing Strategy ..................... Page 3
                    Recommendations 1 through 4: .................................................. Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 9
          Appendix III – Report Distribution List ....................................................... Page 10
          Appendix IV – Outcome Measure ................................................................ Page 11
          Appendix V – Management’s Response to the Draft Report ....................... Page 13
       Significant Additional Real Estate Cost Savings
             Can Be Achieved by Implementing a
           Telework Workstation Sharing Strategy




               Abbreviations

FY       Fiscal Year
IRS      Internal Revenue Service
NTEU     National Treasury Employees Union
                               Significant Additional Real Estate Cost Savings
                                     Can Be Achieved by Implementing a
                                   Telework Workstation Sharing Strategy




                                            Background

In January 2003, the Government Accountability Office
designated the management of Federal real property as a        In Fiscal Year 2012, the IRS will
high-risk area, in part due to the presence of unneeded       spend an estimated $741 million
property. After the Government Accountability Office’s          on real estate costs relating to
                                                                 28 million total square feet in
high-risk designation, President George W. Bush added                    655 buildings.
real property management to the President’s
Management Agenda and directed that the Federal Real
Property Profile be established as a comprehensive database of real property under the control
and custody of executive branch agencies. In February 2004, the President also established a
goal of disposing of $15 billion in unneeded real property assets by Fiscal Year (FY) 2015 to
encourage agencies to right-size their portfolios by eliminating unneeded property.
The Federal Government holds many excess and underutilized properties that cost billions of
dollars annually to operate. Excess properties include buildings that agencies have identified as
having no further program use and underutilized properties that could meet business needs using
only a portion of the property. Real property costs represent a significant expense to the Internal
Revenue Service (IRS). In FY 2012, the IRS will spend an estimated $741 million on real estate
costs relating to 28 million total square feet in 655 buildings.1
On June 10, 2010, President Obama directed Government agencies to accelerate efforts to
eliminate excess properties and take immediate steps to make better use of remaining real
property assets as measured by utilization and occupancy rates. The President directed that all
Federal agencies achieve $3 billion in savings by the end of FY 2012. In order to track these
savings, the IRS provides periodic updates to the Department of the Treasury on the status of its
rent reduction efforts.
The June 2010 President’s memorandum also required Government agencies to increase
occupancy rates in current facilities through innovative approaches to space management and
alternative workplace arrangements, such as telework. The terms “telecommuting” and
“telework” are synonymous and include working at home or in satellite office sites or other
approved telework sites.



1
  The $741 million in annual real estate costs was calculated by annualizing total monthly real estate costs per the IRS
Graphic Data Interface system as of March 2012. The 28 million in total square feet rented is also per the IRS Graphic Data
Interface system as of March 2012. The 655 buildings represents all buildings rented to the IRS per the IRS Graphic
Data Interface system as of March 2012 but excludes parking, day care centers, joint use, and Criminal Investigation
storage facilities.
                                                                                                           Page 1
                          Significant Additional Real Estate Cost Savings
                                Can Be Achieved by Implementing a
                              Telework Workstation Sharing Strategy



This review was performed at the Agency-Wide Support Services’ field offices of the Real
Estate and Facilities Management function in Washington, D.C.; Atlanta Georgia;
Chicago, Illinois; and Brookhaven and Brooklyn, New York, during the period August 2011
through February 2012. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 2
                               Significant Additional Real Estate Cost Savings
                                     Can Be Achieved by Implementing a
                                   Telework Workstation Sharing Strategy




                                      Results of Review
The IRS has achieved some real estate cost savings in support of the President’s $3 billion goal.
From October 2010 through December 2011, the IRS completed 17 space consolidation and
relocation projects,2 which the IRS reported to the Department of the Treasury will result in
$2.8 million of realized rent savings in FY 2012. The IRS also plans to complete an additional
66 projects by September 2012, which could provide an additional $3.8 million in realized rent
savings in FY 2012.3
In addition, on May 22, 2012, the IRS announced plans to close smaller offices and reduce space
in many larger facilities. The IRS estimated these actions will save $17.2 million in annual
rental costs in FY 2012 and $23.5 million in FY 2013. We determined that the $17.2 million
cost savings for FY 2012 is based on an entire year’s rent costs, even though some of the office
closings may not occur until the end of FY 2012. We plan to initiate a separate audit reviewing
the IRS’s real estate property consolidation.
While these projects represent cost savings in support of the President’s goal, a significant
impediment to the IRS’s ability to achieve additional real estate cost savings is the lack of an
established policy and effective strategy to implement workstation sharing by its employees who
telework.4 As a result, the IRS has been unable to effectively capitalize on the space cost savings
that can be achieved from workstation sharing by employees who telework. The IRS continues
to incur rental costs for more workstations than required. We estimate that if the employees
whom the IRS allows to routinely telework on a full- or part-time basis shared their workstation
on days they were not in the office, 10,244 workstations could potentially be eliminated. The
reduction of these workstations could allow the IRS to reduce its long-term office space needs by
almost one million square feet, resulting in potential rental savings of approximately
$111.4 million over five years.

Achieving Additional Space Savings Is Hampered by the Lack of an
Effective Telework Workstation Sharing Strategy
Our analysis indicated that 21,890 of the 35,533 employees the IRS identified as participating in
telework are allowed to telework full- or part-time on a routine basis. However,

2
  Because of the long-term nature of real estate space consolidation and reduction projects, 11 of the 17 projects
were actually initiated before the issuance of the President’s memorandum in June 2010.
3
  Two of the 66 projects were actually completed during the period October through December 2011 but were not
included in the IRS’s reports to the Department of the Treasury as of February 2012.
4
  Telework employees are those who work full- or part-time on a routine basis at home or another location away
from the office.
                                                                                                             Page 3
                              Significant Additional Real Estate Cost Savings
                                    Can Be Achieved by Implementing a
                                  Telework Workstation Sharing Strategy



20,488 (94 percent) of those 21,890 employees are not sharing workstations. If these employees
were required to share a workstation with only one other employee who also teleworks, the IRS
could potentially eliminate 10,244 workstations. This could allow the IRS to eventually reduce
its long-term office space needs by an estimated one million square feet, resulting in potential
rental savings of approximately $111.4 million over five years.
The IRS first implemented a telework program in approximately 1995 and has long supported
telework for employees who meet certain criteria. The IRS’s telework program consists of three
levels of participation: 1) occupational telework where an employee generally works full-time
from a location other than an IRS office; 2) situational-recurring telework where an employee
works up to 80 hours per month, on a regular schedule, at a location other than an IRS office;
and 3) situational-nonrecurring telework where an employee works up to 80 hours per month, on
an ad hoc basis, at a location other than an IRS office. The IRS’s telework policy offers
significant advantages to employees who qualify. By working from home, employees are able to
save on commuting costs, parking expenses, and time spent traveling to and from the office.
Figure 1 provides a breakdown of the participation levels of the 35,533 employees the IRS
identified as participating in telework.
                                      Figure 1: Breakdown of
                                   Telework Participation Levels

                                                                  Number
                                  Level of Telework                of IRS
                                    Participation                Employees
                                 Occupational Status                 7,303 
                                 Situational‐Recurring              14,587 
                               Situational‐Nonrecurring             13,643 
                            Source: IRS telework data received in October 2011.

The IRS’s ongoing difficulties in realizing cost savings from its telework program can be traced
to its risk-adverse approach to management of the program and lack of a coordinated strategy for
addressing workstation sharing by employees who telework. For example, in September 2004,5
the Treasury Inspector General for Tax Administration reported that although the IRS had an
agreement with the National Treasury Employees Union (NTEU) requiring employees who
participated in full-time telework to share workstations, the IRS did not take any coordinated
actions to reduce its future space needs based on this agreement. Instead, the IRS indicated more
negotiation was needed with the NTEU before it would consider releasing space because of


5
 Treasury Inspector General for Tax Administration, Ref. No. 2004-10-182, The Internal Revenue Service Faces
Significant Challenges to Reduce Underused Office Space Costing $84 Million Annually (Sept. 2004).
                                                                                                       Page 4
                             Significant Additional Real Estate Cost Savings
                                   Can Be Achieved by Implementing a
                                 Telework Workstation Sharing Strategy



IRS management’s concern that sufficient office space would not be available if teleworking
employees subsequently decided to change their telework participation level in order to maintain
their workstation.
In July 2009,6 the Treasury Inspector General for Tax Administration similarly found that the
IRS continued to lack a methodology for considering workstation sharing by employees
participating in telework in evaluating its future space needs. At that time, we recommended the
IRS develop a comprehensive national policy regarding workstation sharing in coordination with
the NTEU. In their response, IRS management agreed to implement this policy by June 2010.
In October 2009, the IRS and NTEU ratified a new five-year agreement that continued to allow
employees to participate in a telework program. Unlike the February 2002 agreement, the
October 2009 agreement contained no requirement for telework employees to share
workstations. The IRS also revised the estimated completion date for developing a teleworking
policy to June 2013.
During this review, IRS management informed us that they are actively pursuing efforts to
implement workstation sharing in conjunction with the IRS’s telework program. For example, in
November 2011, the IRS developed a limited workstation sharing policy for some selected
positions within its Information Technology organization and obtained NTEU agreement for this
arrangement. In addition, in March 2012, the IRS informed us that it is aggressively working
with the NTEU to add a requirement to the NTEU agreement that employees participating in
telework share workstations.
In addition to establishing a workstation sharing policy, the IRS needs to develop an overall
strategy that links workstation sharing with the IRS’s planning for future space needs. Because
real estate consolidation and relocation projects can take three or more years from planning to
completion, it is critical that the IRS begins to comprehensively reevaluate its entire real estate
portfolio as part of its overall effort to achieve space savings through workstation sharing. This
task will require a reassessment of the 655 IRS-occupied buildings for space-saving
opportunities and the development of new interim and long-range occupancy goals that consider
workstation sharing. In March 2012, the IRS informed us that it is still in the process of setting
its goals for space reduction for FYs 2013 through 2015.




6
  Treasury Inspector General for Tax Administration, Ref. No. 2009-10-107, Controls Over Real Property
Management Have Improved; However, Additional Efforts Are Needed to Address Planned Staffing Increases
(July 2009).
                                                                                                    Page 5
                           Significant Additional Real Estate Cost Savings
                                 Can Be Achieved by Implementing a
                               Telework Workstation Sharing Strategy



Recommendations
The IRS Human Capital Officer should:
Recommendation 1: Finalize an agreement with the NTEU that establishes a workstation
sharing policy that can be implemented IRS-wide.
       Management’s Response: IRS management agreed with this recommendation. The
       expansion of telework and the implementation of a shared workstation program for
       telework employees have been successfully negotiated into the parties’ National
       Agreement. The parties agreed that the applicable language regarding telework will take
       effect on October 1, 2012.
Recommendation 2: Pursue a workstation sharing policy with other IRS business units
similar to the agreement reached with its Information Technology organization until an
agreement between the IRS and the NTEU is finalized that includes a workstation sharing policy.
       Management’s Response: Not applicable; see IRS management’s response for
       Recommendation 1.
The Chief, Agency-Wide Shared Services, should:
Recommendation 3: Develop an overall strategy that links workstation sharing with the
IRS’s planning for future space needs. As part of this strategy, the IRS should reassess its entire
real estate portfolio for space-saving opportunities based on workstation sharing and develop
revised interim and long-range occupancy goals that take workstation sharing into account.
       Management’s Response: IRS management agreed with this recommendation. The
       Chief, Agency-Wide Shared Services, will revise interim and long-range portfolio
       strategies for future space needs at sites to include workstation sharing as appropriate.
Recommendation 4: Reevaluate the potential impact of workstation sharing on all current
real estate planning projects to determine if the applicable space requirements can be reduced
through workstation planning.
       Management’s Response: IRS management agreed with this recommendation. The
       Chief, Agency-Wide Shared Services, will review real estate projects currently being
       planned to determine if space requirements can be reduced if workstation sharing is
       implemented for frequent teleworkers.




                                                                                             Page 6
                          Significant Additional Real Estate Cost Savings
                                Can Be Achieved by Implementing a
                              Telework Workstation Sharing Strategy



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS’s progress in achieving real estate cost
savings to meet the President’s FY 2012 Federal real estate cost savings goal. To accomplish
this objective, we:
I.     Obtained and reviewed any guidance and input developed by IRS management, Office of
       Management and Budget, and Department of the Treasury officials in response to the
       June 10, 2010, Presidential memorandum on reducing real estate costs.
       A. Obtained any guidance issued by the Office of Management and Budget and the
          Department of the Treasury regarding the President’s FY 2012 Federal real estate cost
          savings goals.
       B. Interviewed Real Estate and Facilities Management function personnel regarding
          input the IRS provided to the Department of the Treasury in establishing the
          IRS’s agency-level real estate cost savings in support of the President’s goal.
II.    Assessed the steps taken by the IRS to achieve real estate cost savings in support of the
       President’s FY 2012 real estate cost savings goal.
       A. Identified the IRS’s real property cost-saving projects completed (since
          October 2010) in support of the President’s FY 2012 goal and analyzed the
          methodology used to identify the projected cost savings.
       B. Interviewed IRS Real Estate and Facilities Management function management to
          determine the status of efforts to achieve FY 2012 real estate cost savings and
          ascertain the impact of any barriers or obstacles identified to meeting those cost
          savings.
       C. Determined the population of projects in process in support of the President’s
          FY 2012 goal and selected all significant projects (>10,000 square feet reduction) that
          were in process as of July 2011. For the selected projects, we:
           1. Interviewed the project manager, reviewed the project construction schedule, and
              performed a walkthrough of the project site.
           2. Assessed whether the in-process project status is consistent with the information
              being reported by the IRS.




                                                                                            Page 7
                          Significant Additional Real Estate Cost Savings
                                Can Be Achieved by Implementing a
                              Telework Workstation Sharing Strategy



       D. Reviewed the IRS’s efforts to use telework opportunities to reduce existing space
          needs and assist management in achieving real estate cost savings.
           1. Interviewed Real Estate and Facilities Management function management to
              identify the IRS’s telework consideration policies and procedures in connection
              with its space needs evaluation process.
           2. Assessed whether the IRS uses employee telework participation levels to identify
              potential cost savings.
III.   Evaluated whether the cost savings obtained in support of the President’s FY 2012
       Federal real estate cost savings goals are reported as required.
       A. Identified the external reporting requirements related to the President’s FY 2012
          Federal real estate cost savings goals.
       B. Determined whether the IRS is timely reporting its real estate cost-saving efforts to
          the Department of the Treasury.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s ongoing space-saving projects to
achieve the President’s FY 2012 real estate cost savings goal and the IRS’s telework policy. We
evaluated these controls by interviewing IRS management, performing on-site visits of the
ongoing rent reduction projects, and reviewing applicable documentation.




                                                                                           Page 8
                        Significant Additional Real Estate Cost Savings
                              Can Be Achieved by Implementing a
                            Telework Workstation Sharing Strategy



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Jeffrey M. Jones, Director
Anthony J. Choma, Audit Manager
Kanika Kals, Lead Auditor
Jamelle L. Pruden, Senior Auditor
Rashme Sawhney, Auditor




                                                                                   Page 9
                        Significant Additional Real Estate Cost Savings
                              Can Be Achieved by Implementing a
                            Telework Workstation Sharing Strategy



                                                                   Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Real Estate and Facilities Management OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Financial Officer OS:CFO
       IRS Human Capital Officer OS:HC




                                                                          Page 10
                             Significant Additional Real Estate Cost Savings
                                   Can Be Achieved by Implementing a
                                 Telework Workstation Sharing Strategy



                                                                                         Appendix IV

                                   Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Cost Savings – Funds Put to Better Use – Potential; $18.7 million per year for FY 2012 and
    FY 2013 and $24.7 million per year for FY 2014 through FY 2016, totaling $111.4 million
    over five years; this represents the rent costs that could potentially be avoided if the IRS
    implemented a workstation sharing strategy and reduced its future space needs (see page 3). 

Methodology Used to Measure the Reported Benefit:
Our analysis indicated that of the 35,533 employees the IRS identified as participating in
telework, 21,890 employees are in occupational or situational-recurring status. However,
20,488 (94 percent) of those 21,890 employees are not sharing workstations. We estimate that if
the 20,488 employees who are in occupational or situational-recurring telework status were
required to share a workstation with one other employee who also teleworks, the IRS could
eventually eliminate 10,244 workstations.
Using 90 square feet as the standard for a workstation, we estimate the IRS could save
921,960 square feet of office space (10,244 x 90 square feet = 921,960 square feet). We
determined the average rental cost per square foot is $26.77. As a result, we estimate the IRS
could save $24,680,869 annually in rental cost (921,960 square feet x $26.77 per square foot =
$24,680,869). Over a five-year period, this would result in rental cost savings of $123,404,345
($24,680,869 per year x five years = $123,404,345). Because we previously reported1 benefits of
$6 million annually through FY 2013 based on a similar recommendation made in FY 2009, we
reduced our annual and overall benefits estimates as illustrated in the chart on page 12.




1
  Treasury Inspector General for Tax Administration, Ref. No. 2009-10-107, Controls Over Real Property
Management Have Improved; However, Additional Efforts Are Needed to Address Planned Staffing Increases
(July 2009).
                                                                                                   Page 11
                    Significant Additional Real Estate Cost Savings
                          Can Be Achieved by Implementing a
                        Telework Workstation Sharing Strategy



          Adjusted Estimated Annual Savings for FYs 2012–2016

                                        Previously        Adjusted
                     Estimated          Reported          Estimated
Fiscal Year        Annual Savings   Estimated Savings   Annual Savings
   2012              $24,680,869       $6,000,000         $18,680,869
   2013              $24,680,869       $6,000,000         $18,680,869
   2014              $24,680,869           0              $24,680,869
   2015              $24,680,869           0              $24,680,869
   2016              $24,680,869           0              $24,680,869
  Total                                                  $111,404,345




                                                                         Page 12
         Significant Additional Real Estate Cost Savings
               Can Be Achieved by Implementing a
             Telework Workstation Sharing Strategy



                                                    Appendix V

Management’s Response to the Draft Report




                                                           Page 13
Significant Additional Real Estate Cost Savings
      Can Be Achieved by Implementing a
    Telework Workstation Sharing Strategy




                                                  Page 14
Significant Additional Real Estate Cost Savings
      Can Be Achieved by Implementing a
    Telework Workstation Sharing Strategy




                                                  Page 15
